U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Eagle Trust Fund v. United States Postal Service, No. 20-1026
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 25,
2021. The government’s response is now due, after one extension, on May 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 11, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1026
EAGLE TRUST FUND
UNITED STATES POSTAL SERVICE, ET AL.

LAWRENCE J. JOSEPH
LAW OFFICE OF LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM

